Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




UTAH STATE MEDICAID FRAUD
      CONTROL UNIT:
   2013 ONSITE REVIEW




                          Brian P. Ritchie
                 Acting Deputy Inspector General for
                     Evaluation and Inspections

                            April 2014
                          OEI-09-13-00490
EXECUTIVE SUMMARY – UTAH STATE MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-09-13-00490

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees all State Medicaid Fraud Control Units
(MFCUs or Units) with respect to Federal grant compliance. As part of this oversight,
OIG annually reviews and certifies all Units. In addition, OIG conducts onsite reviews of
selected States. These reviews assess Unit performance in accordance with the 12 MFCU
performance standards and monitor Unit compliance with Federal grant requirements,
laws, and regulations.

HOW WE DID THIS STUDY

We analyzed data from seven sources: (1) a review of documentation, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management and selected staff; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND

From fiscal years 2010 through 2012, the Unit reported recoveries of $61 million,
26 convictions, and 51 civil judgments and settlements. Unit case files lacked
documentation of supervisory approval to open and close cases and documentation of
periodic supervisory reviews. In addition, the Unit did not refer three sentenced
individuals to OIG for program exclusion. The Unit’s policies and procedures manual
did not reflect current Unit operations. Finally, the Unit did not report adverse actions to
the National Provider Data Bank (NPDB) as required by Federal regulations.

WHAT WE RECOMMEND

We recommend that the Utah Unit (1) ensure that supervisory approval and periodic
reviews are documented in Unit case files, (2) ensure that it refers individuals for
exclusion to OIG, (3) revise its policies and procedures manual, and (4) ensure that
adverse actions are reported to the NPDB. The Unit concurred with all four of our
recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................8 

           From FY 2010 through FY 2012, the Unit reported recoveries                                        

           of $61 million, 26 convictions, and 51 civil judgments and 

           settlements........................................................................................8 

           Unit case files did not consistently contain documentation of 

           supervisory approval to open and close cases, and 60 percent                                         

           of case files lacked documentation of periodic supervisory 

           reviews .............................................................................................9 

           The Unit did not refer three sentenced individuals to OIG for
           program exclusion ..........................................................................10 

           The Unit’s policies and procedures manual did not reflect 

           current Unit operations ..................................................................10 

           The Unit did not report adverse actions to the NPDB ...................11

           Other Observations: Certified Fraud Examiner training, 

           investigator workload tracking, and managed care referrals .........11

Conclusion and Recommendations ............................................................13 

           Unit Comments and Office of Inspector General Response ..........14 

Appendixes ................................................................................................15 

           A: Performance Standards for MFCUs (Units) ............................15 

           B: Revised 2012 Performance Standards for MFCUs (Units) ......19 

           C: Referrals of Provider Fraud and Patient Abuse and Neglect 

           to the Utah MFCU by Source, FYs 2010 Through 2012 ...............26 

           D: Investigations Opened and Closed by the Utah MFCU by 

           Provider Category and Case Type, FYs 2010 Through 2012 ........27 

           E: Case File Review Population, Sample Size Counts, and 

           Confidence Interval Estimates .......................................................29 

           F: Unit Comments.........................................................................31 

Acknowledgments......................................................................................33 

                   OBJECTIVE
                   To conduct an onsite review of the Utah State Medicaid Fraud Control
                   Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1, 2 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services determines that operation of a Unit would not be cost-effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other, adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect. Currently, 49 States and the District of Columbia
                   (States) have created such Units.3 In fiscal year (FY) 2012, combined
                   Federal and State grant expenditures for the Units totaled $217.3 million,
                   of which Federal funds represented $162.9 million.4, 5 That year, the
                   50 Units employed 1,901 individuals.6
                   To carry out its duties in an effective and efficient manner, each Unit must
                   employ an interdisciplinary staff that consists of at least an investigator, an
                   auditor, and an attorney.7 The staff reviews complaints referred by the
                   State Medicaid agency and other sources and determines their potential for
                   criminal prosecution and/or civil action. Collectively, in FY 2012, the
                   50 Units reported 1,337 convictions and 823 civil judgments and




                   1
                     Social Security Act (SSA) § 1903(q).

                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. Medicaid 

                   Fraud Control Units, Office of Inspector General (OIG) web site. Accessed at 

                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 21, 2013. 

                   4
                     All FY references in this report are based on the Federal FY (October 1 through
                   September 30).

                   5
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   May 8, 2013.

                   6
                     Ibid. 

                   7
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                              1
                   settlements. That year, the Units reported recoveries of approximately
                   $2.9 billion.8
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority.9 In Utah and 43 other States, the Units are located within
                   offices of State Attorneys General that have this authority. In the
                   remaining six States, the Units are located within other State agencies;
                   generally, such Units must refer cases to offices with prosecutorial
                   authority.10 Additionally, each Unit must be a single, identifiable entity of
                   State government, distinct from the State Medicaid agency, and each Unit
                   must develop a formal agreement—i.e., a memorandum of understanding
                   (MOU)—that describes the Unit’s relationship with that agency.11
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to OIG the authority
                   both to annually certify the Units and to administer grant awards to
                   reimburse States for a percentage of their costs of operating them.12 All
                   Units are currently funded by the Federal Government on a 75-percent
                   matching basis, with the States contributing the remaining 25 percent.13 To
                   receive Federal reimbursement, each Unit must submit an initial application
                   to OIG.14 OIG reviews the application and notifies the Unit whether it is
                   approved and the Unit is certified. Approval and certification are valid for a
                   1-year period; the Unit must be recertified each year thereafter.15
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements.16 OIG

                   8
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   May 8, 2013. Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered

                   funds in their annual reports to OIG. “Recoveries” are defined as the amount of money

                   that defendants are required to pay as a result of a judgment or settlement in criminal and 

                   civil cases, and may not reflect actual collections. Recoveries may involve cases that

                   include participation by other Federal and State agencies. 

                   9
                     SSA § 1903(q)(1).

                   10
                      In States with a Unit, the Unit shares responsibility for protecting the integrity of the 

                   Medicaid program with the section of the State Medicaid agency that functions as the

                   Program Integrity Unit. Some States, including Utah, also employ a Medicaid Inspector

                   General who conducts and coordinates activities against fraud, waste, and abuse for the 

                   State agency. 

                   11
                      SSA § 1903(q)(2) and 42 CFR § 1007.9(d). 

                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is referred to as 

                   Federal Financial Participation.

                   13
                      SSA § 1903(a)(6)(B).

                   14
                      42 CFR § 1007.15(a). 

                   15
                      42 CFR § 1007.15(b) and (c). 

                   16
                      SSA § 1902(a)(61).


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                   2
                   developed and issued 12 performance standards to define the criteria that
                   OIG applies in assessing whether a Unit is effectively carrying out statutory
                   functions and meeting program requirements.17 Examples of standards
                   include maintaining an adequate caseload through referrals from several
                   sources, maintaining an annual training plan for all three of the professional
                   disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                   policy and procedures manuals to reflect the Unit’s operations. See
                   Appendix A for a complete list of the performance standards.18
                   Utah Unit
                   The Unit is an autonomous entity within the Utah Attorney General’s
                   Criminal Justice Division and has the authority to prosecute cases of
                   Medicaid fraud and cases of patient abuse and neglect. At the time of our
                   review, all of the Unit’s 13 employees were located in Murray, Utah. The
                   Unit Director serves as the Chief Attorney and directly supervises all Unit
                   attorneys, the Chief Investigator, Unit auditors, and Unit support staff.
                   The Chief Investigator directly supervises the five other Unit investigators.
                   The Unit receives referrals of provider fraud from the Utah Office of
                   Inspector General of Medicaid Services and from Federal agencies, such
                   as OIG. The Unit receives referrals of patient abuse and neglect19 from the
                   Utah Division of Aging and Adult Services (DAAS). In addition, the Unit
                   receives both types of referrals from other State and local agencies. For
                   additional information on Unit referrals, see Appendix C.
                   Upon receiving a referral, the Chief Investigator and Unit Director screen
                   it to decide whether to open the referral as a case and proceed with an
                   investigation or refer it to another agency.20 After a referral is accepted for
                   investigation, the Unit paralegal opens it as a case in the Unit’s electronic
                   case tracking system. Unit supervisors assign the case to an investigator,
                   an attorney, and, as appropriate, an auditor. The assigned Unit employees
                   then meet to plan the case strategy.



                   17
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at https://oig.hhs.gov/fraud/medicaid-
                   fraud-control-units-mfcu/files/Performance%20Standards.pdf on May 8, 2013.
                   18
                      The performance standards referred to in this report were published in 1994 and were
                   in effect during most of our review period (FYs 2010 through 2012). In June 2012, OIG
                   published a revision of the performance standards (77 Fed. Reg. 32645, June 1, 2012).
                   Our onsite data collection took place in September 2013. When referring to the
                   performance standards, we refer to the 1994 standards, unless otherwise noted. See
                   Appendix B for a complete list of the revised performance standards.
                   19
                      For the purposes of this report, misappropriation of patients’ private funds in
                   residential health care facilities is included in the category of patient abuse and neglect.
                   20
                      For fraud referrals, the Chief Investigator and Unit Director also consult with the Chief
                   Auditor to determine whether to open the referral as a case and proceed with an
                   investigation.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                  3
                   The Unit may open a case and pursue it through a variety of actions,
                   including criminal prosecution, civil action, or a combination of the two.
                   The Unit may close a case for a variety of reasons, including, but not
                   limited to, resolving it through criminal and/or civil action or referring it
                   to another agency. For additional information on the Unit’s opened and
                   closed investigations, including a breakdown by case type and provider
                   category, see Appendix D.
                   Previous Review
                   In 2007, OIG conducted an onsite review of the Utah Unit and found it to
                   be “in general compliance with the Federal rules and regulations that
                   govern the [MFCU] grant.” However, the review identified two areas of
                   concern related to the Unit’s case flow. The review recommended that the
                   Unit develop a case file index for locating documents within case files and
                   that the Unit open case files only for referrals accepted for formal
                   investigation. According to the report on the 2007 review, the Unit
                   Director’s response to the review findings satisfied OIG “that the MFCU
                   [was] properly reporting its statistical information.”

                   METHODOLOGY
                   We analyzed data from seven sources: (1) a review of Unit
                   documentation, including policies and procedures related to the Unit’s
                   operations, staffing, and caseload for FYs 2010 through 2012; (2) a review
                   of financial documentation for FYs 2010 through 2012; (3) structured
                   interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
                   interviews with the Unit’s management and selected staff; (6) an onsite
                   review of case files that were open at any point during FYs 2010 through
                   2012; and (7) an onsite review of Unit operations.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not meet the performance standards or was not operating in
                   accordance with laws, regulations, and/or policy transmittals.21
                   In addition, we noted practices that appeared to benefit the Unit. We
                   based these observations on statements from Unit staff and an analysis of
                   collected data. We did not independently verify the effectiveness of these
                   practices, but included the information because it may be useful to other
                   Units in their operations.
                   We conducted the onsite review in September 2013.

                   21
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                4
                   Data Collection and Analysis
                   Review of Unit Documentation. We collected and reviewed Unit
                   documentation, including policies and procedures related to the Unit’s
                   operations, staffing, and cases. This documentation included the Unit’s
                   annual reports, quarterly statistical reports, and responses to recertification
                   questionnaires. We reviewed the documentation to determine how the
                   Unit investigates and prosecutes Medicaid cases. The documentation also
                   included data such as the number of referrals received by the Unit and the
                   number of investigations opened and closed. Additionally, we confirmed
                   with the Unit Director that the information we had was current at the time
                   of our review and requested any additional data or clarification, as needed.
                   Review of Financial Documentation. We reviewed Unit financial
                   practices to determine compliance with applicable laws and regulations
                   and to determine the need for additional internal controls. Prior to the
                   onsite review, we reviewed the Unit’s financial policies and procedures,
                   its response to an internal control questionnaire, and MFCU grant-related
                   documents such as financial status reports. During the onsite review, we
                   reviewed a sample of the Unit’s purchase and travel transactions. In
                   addition, we reviewed vehicle records, the equipment inventory, and a
                   sample of time and effort records.
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with seven individual stakeholders among five agencies who were familiar
                   with Unit operations. Specifically, we interviewed the Program Integrity
                   Manager for the Utah Office of Inspector General of Medicaid Services; a
                   regional director of DAAS; an Assistant U.S. Attorney based in Utah; the
                   Utah Attorney General’s Criminal Justice Division Chief;22 two OIG
                   Special Agents based in Salt Lake City; and the Utah Inspector General of
                   Medicaid Services. These interviews focused on the Unit’s interaction
                   with external agencies, Unit operations, opportunities for improvement,
                   and any practices that appeared to benefit the Unit and that may be useful
                   to other Units in their operations.
                   Survey of Unit Staff. We conducted an online survey of Unit staff.23 We
                   requested responses from 10 staff members and received responses from
                   9 of them, a 90–percent response rate. Our questions focused on Unit
                   operations, opportunities for improvement, and practices that appeared to
                   benefit the Unit and that may be useful to other Units in their operations.



                   22
                      The Unit Director is supervised by the Chief of the Attorney General’s Criminal Justice
                   Division.

                   23
                      We did not survey the Unit Director, Chief Investigator, or Chief Auditor because we

                   interviewed these staff members onsite. 


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                               5
                   The survey also sought information about the Unit’s compliance with
                   applicable laws, regulations, and policy transmittals.
                   Interviews With Unit Management and Selected Staff. We conducted
                   structured interviews with the Unit’s Director, Chief Investigator, and
                   Chief Auditor. We asked them to provide us with additional information
                   to better understand the Unit’s operations, identify opportunities for
                   improvement, identify practices that appeared to benefit the Unit and that
                   may be useful to other Units in their operations, and to clarify information
                   obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 258 cases24 that were open at any point from
                   FY 2010 through FY 2012. The design of this sample allowed us to
                   estimate the percentage of all 258 cases with various characteristics at the
                   95-percent confidence level. We were able to gather information on 98 of
                   the 100 case files selected in the sample, a 98–percent response rate.25 We
                   reviewed these 98 sampled case files and the Unit’s processes for
                   monitoring the status and outcomes of cases. From the 100 case files in
                   the initial sample, we selected another simple random sample of 50 files
                   for a more in-depth review of potential issues. This second-phase sample
                   allowed us to conduct a more comprehensive review of case files to
                   identify any potential issues from a qualitative perspective. We consulted
                   Unit staff to address any apparent issues with individual case files, such as
                   missing documentation. For population and sample size counts, as well as
                   confidence interval estimates, see Appendix E.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed the intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit. We also checked to ensure that the Unit referred sentenced




                   24
                      This figure includes cases opened before FY 2010 that remained open at some point
                   during FYs 2010–2012. This figure does not include 72 multi-State (“global”) civil
                   false-claims cases, which consist of both those worked directly by the Unit and those
                   worked by staff from the Federal government or other Units. For the purposes of our
                   case file review, the Unit’s global cases were not included as part of the Unit’s case file
                   population. Including global cases, the total number of Unit cases open during the review
                   period was 330.
                   25
                      Two of the case files selected for our sample were sealed by court order and therefore
                   unavailable for review.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                6
                   individuals to OIG for program exclusion and that the Unit reported
                   adverse actions to the National Practitioner Data Bank (NPDB).26, 27
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.28




                   26
                      The NPDB was established by the Department of Health and Human Services as “a
                   national health care fraud and abuse data collection program … for the reporting of
                   certain final adverse actions … against health care providers, suppliers, or practitioners.”
                   SSA § 1128E(a) and 45 CFR § 61.1(2012). This portion of the NDPB used to be a
                   separate databank called the Healthcare Integrity and Protection Databank (HIPDB). The
                   HIPDB and the NPDB were merged into one databank in May 2013. 78 Fed. Reg.
                   20473 (April 5, 2013).
                   27
                      Examples of adverse actions include criminal convictions; civil judgments (but not
                   civil settlements); exclusions; and other negative actions or findings, including “any
                   action or finding that under the State’s law is publicly available information, and
                   rendered by a licensing or certification authority, including but not limited to, limitations
                   on the scope of practice, liquidations, injunctions and forfeitures.” SSA § 1128E(g)(1)
                   and 45 CFR § 61.3 (2012). We reviewed the reporting of adverse actions under HIPDB
                   requirements because the HIPDB and the NPDB had not yet been merged during the
                   period of our review (FYs 2010 through 2012). Current Unit requirements for reporting
                   to the merged NPDB are in 45 CFR pt. 60.
                   28
                      Full text of these standards is available online at http://www.ignet.gov/pande/standards/
                   oeistds11.pdf.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                  7
                   FINDINGS
                   From FY 2010 through FY 2012, the Unit reported
                   recoveries of $61 million, 26 convictions, and 51 civil
                   judgments and settlements
                   From FY 2010 through FY 2012, the Unit reported total criminal and civil
                   recoveries of $61 million, an annual average of $20 million (see Table 1).
                   Of the $61 million in total recoveries, the Unit attributed $47,887 to
                   criminal recoveries. Non-“global”29 civil judgments and settlements
                   accounted for 77 percent ($46 million) of the total civil recoveries, and
                   global cases accounted for 72 of the Unit’s 330 total cases over the 3-year
                   period. The Unit’s annual average expenditures for FYs 2010 through
                   2012 were $1.6 million.30
                   Table 1: Funds Reported Recovered by the Utah Unit, FYs 2010 Through
                   2012
                                                                                                                         Annual
                                                  FY 2010          FY 2011          FY 2012       3-Year Total
                                                                                                                        Average*

                    Criminal
                                                    $8,242         $35,405            $4,240            $47,887           $15,962
                    Recoveries

                    Global Civil
                                               $4,611,892       $6,514,376       $3,180,029        $14,306,297        $4,768,766
                    Recoveries

                    Nonglobal Civil
                                             $25,114,128        $7,166,357      $14,195,791        $46,476,276       $15,492,092
                    Recoveries

                    Total Civil
                                             $29,726,020      $13,680,733       $17,375,820        $60,782,573       $20,260,858
                    Recoveries

                    Total Civil and
                    Criminal                 $29,734,262      $13,716,138       $17,380,060        $60,830,460       $20,276,820
                    Recoveries

                    Total
                                               $1,446,999       $1,608,289       $1,669,284         $4,724,572        $1,574,857
                    Expenditures

                   Source: OIG review of Unit self-reported Quarterly Statistical Reports (QSRs) and other data, FYs 2010–2012.
                   *Averages in this table are rounded.


                   From FY 2010 through FY 2012, the Unit Reported 26 Convictions and
                   51 Civil Judgments and Settlements. From FY 2010 through FY 2012, the
                   Unit’s convictions decreased, but civil judgments and settlements
                   remained at a consistent level. During this period, the Unit reported



                   29
                      Unit-reported recoveries include funds recovered from multi-State, or “global,” civil
                   false claims cases, which consist of both those worked directly by the Unit and those
                   worked by staff from other Units.
                   30
                      The figures presented in this paragraph are rounded.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                                      8
                   26 convictions and 51 civil judgments and settlements, an annual average
                   of 8.7 convictions and 17 civil judgments and settlements (see Table 2).
                   Table 2: Unit Convictions and Civil Judgments and Settlements,
                   FYs 2010 Through 201231
                                                                                                       3-Year   Annual
                                                               FY 2010       FY 2011       FY 2012
                                                                                                        Total   Average

                    Convictions                                       12            10            4        26       8.7


                    Civil Judgments and Settlements                   18            18            15       51        17


                   Source: OIG review of Unit self-reported QSRs and other data, FYs 2010–2012.


                   From FYs 2010 through 2012, the Unit opened an average of 69 cases
                   annually, with an average of 41 cases of provider fraud and 27 cases of
                   patient abuse and neglect. From FYs 2010 through 2012, the Unit closed
                   an average of 73 cases annually, averaging 34 cases of provider fraud and
                   39 cases of patient abuse and neglect.32 From FYs 2010 through 2012, the
                   Unit received an average of 69 referrals annually, with an average of
                   41 referrals of provider fraud and 27 referrals of patient abuse and neglect.
                   Although the number of patient abuse and neglect referrals to the Unit
                   declined each year of the review period, Unit management and
                   stakeholders did not identify any specific cause for the decline.33

                   Unit case files did not consistently contain
                   documentation of supervisory approval to open and
                   close cases, and 60 percent of case files lacked
                   documentation of periodic supervisory reviews
                   According to Performance Standard 6(b), Unit supervisors should approve
                   the opening and closing of cases to ensure a continuous case flow and the
                   timely completion of cases. Supervisory approval to open and close cases
                   suggests that Unit supervisors are monitoring the intake and resolutions of
                   cases, thereby facilitating progress in the cases. According to Unit
                   management, the Unit Director approves the opening and closing of all
                   cases. However, 26 percent of the Unit’s case files lacked documentation
                   of supervisory approval to open cases, and 13 percent of the Unit’s closed
                   case files lacked documentation of supervisory approval to close cases.



                   31
                      Civil judgments and settlements include those received from global cases.
                   32
                      Closures include multiple cases opened before FY 2010. The averages in this
                   paragraph are rounded.
                   33
                      As noted in Table C-1 in Appendix C, total patient abuse and neglect referrals to the
                   Unit declined from 41 in FY 2010 to 28 in FY 2011 and 13 in FY 2012.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                          9
                   According to Performance Standard 6(c), supervisory reviews should be
                   “conducted periodically and noted in the case file” to ensure timely case
                   completion.34 According to Unit management, all open cases are reviewed
                   by supervisors on a weekly basis, and Unit supervisors regularly document
                   supervisory reviews in the case files or electronic case file tracking
                   system. However, 60 percent of the Unit’s cases lacked documentation of
                   periodic supervisory reviews either in the case files or in the electronic
                   case file tracking system.

                   The Unit did not refer three sentenced individuals to
                   OIG for program exclusion
                   According to Performance Standard 8(d), when a convicted individual is
                   sentenced, the Unit should send a referral letter to OIG “within 30 days or
                   other reasonable time period” for the purpose of program exclusion.35, 36
                   The Unit reported 26 total convictions within the review period, but did not
                   refer 3 of those sentenced individuals to OIG for program exclusion within
                   an appropriate timeframe. Each of these individuals had been sentenced at
                   least 2 years prior to our onsite review, but none had been referred to OIG
                   for program exclusion. Unit management acknowledged this oversight and
                   provided documentation that all three individuals were referred to OIG for
                   program exclusion immediately following our onsite review.

                   The Unit’s policies and procedures manual did not
                   reflect current Unit operations
                   According to Performance Standard 3, the Unit should establish policies
                   and procedures for its operations, which should be included in a manual.
                   The Unit’s policies and procedures manual had last been updated in 2013,
                   prior to our onsite review. However, the manual did not address Unit
                   operations specific to its case file review process or its procedures for
                   documenting supervisory approval to open and close cases and periodic



                   34
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a periodic supervisory review. “Periodic supervisory reviews” indicate that a
                   supervisor reviewed a case more than once between the case’s opening and closing and
                   documented those reviews in the case file.
                   35
                      Pursuant to section 1128(a) of the SSA, OIG excludes from participation in Federal
                   health care programs any person or entity convicted of a criminal offense related to the
                   delivery of an item or service under the Medicaid program or to the neglect or abuse of
                   patients in residential health care facilities. No payment may be made by Medicaid,
                   Medicare, or other Federal health care programs for an item or service provided, ordered,
                   or prescribed by an excluded individual or entity. 42 CFR § 1001.1901.
                   36
                      According to 2012 Performance Standard 8(f), all referrals for exclusion should be
                   transmitted to OIG “within 30 days.” That 2012 standard does not allow the option of
                   transmitting referrals for exclusion within an “other reasonable time period.”

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                              10
                   supervisory reviews in the Unit’s case files and/or electronic case file
                   tracking system.

                   The Unit did not report adverse actions to the NPDB
                   Pursuant to Federal regulations, all State and Federal government agencies
                   must report any adverse actions, generated as a result of investigations or
                   prosecutions of healthcare providers, to the NPDB.37 In addition,
                   according to 2012 Performance Standard 8(g), the Unit should report
                   “qualifying cases” to the NPDB. However, the Unit was not registered
                   with the NPDB and did not report adverse actions to the NPDB during the
                   review period. During our onsite review, Unit management acknowledged
                   this oversight and provided documentation that the Unit is now registered
                   with the NPDB.

                   Other Observations:
                   During our onsite review, we noted two practices that may have been
                   beneficial to Unit operations: (1) efforts to ensure that appropriate Unit
                   personnel become Certified Fraud Examiners (CFEs), and (2) the tracking
                   of investigators’ workloads. In addition, Unit management reported
                   concerns about the lack of referrals from managed care organizations
                   (MCOs).

                   Certified Fraud Examiner training

                   According to Performance Standard 12(e), training undertaken by Unit
                   staff should “aid in the mission of the Unit.” During our onsite review,
                   Unit management reported that all Unit auditors and investigators were
                   either trained as CFEs or in training to become CFEs. Unit management
                   and staff reported that CFE training benefitted the Unit’s performance by
                   improving the efficiency and effectiveness of Unit provider fraud
                   investigations.

                   Investigator workload tracking

                   According to Performance Standard 6, a Unit should have a continuous
                   case flow and cases should be completed in a reasonable time. According
                   to Unit management, the tracking of Unit investigators’ workloads helps
                   ensure the timely completion of investigations. The Chief Investigator
                   maintains a spreadsheet documenting the number of cases assigned to each

                   37
                     Under requirements established in 2012, Units must report adverse actions to the
                   NPDB within 30 calendar days from the date the final adverse action was
                   taken. 45 CFR § 61.5(a).

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                            11
                   investigator, as well as the number of hours spent on each case. This
                   spreadsheet also monitors the complexity of each case, which is taken into
                   account when assigning new cases to investigators. The Chief
                   Investigator reported using this spreadsheet to help ensure that each Unit
                   investigator spends a similar amount of time working on investigations
                   and to help ensure that cases are progressing in a timely manner.

                   Managed care referrals

                   According to 2012 Performance Standard 4(a), the Unit should take steps
                   to ensure that MCOs “refer to the Unit all suspected provider fraud cases.”
                   As of 2011, 98 percent of Utah Medicaid enrollees received their health
                   care services through MCOs.38 However, the Unit received no referrals
                   from MCOs during the review period. Unit management reported that it is
                   concerned about the lack of referrals and has taken steps to ensure fraud
                   referrals from MCOs. These steps included discussions among the Unit,
                   the State Medicaid agency (Utah Department of Health), and MCOs. The
                   purpose of these discussions was to develop provisions in MCO contracts
                   to ensure that MCOs send fraud referrals to the Unit.




                   38
                     CMS, 2011 Medicaid Managed Care Enrollment Report, accessed at
                   http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Data-and-
                   Systems/Downloads/2011-Medicaid-MC-Enrollment-Report.pdf on October 24, 2013.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                       12
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2010 through FY 2012, the Unit reported recoveries of
                   $61 million, 26 convictions, and 51 civil judgments and settlements. Unit
                   management and staff reported that CFE training improved the efficiency
                   and effectiveness of Unit provider fraud investigations. Finally, Unit
                   management reported that the tracking of investigators’ workloads helps
                   ensure the timely completion of investigations.
                   Opportunities for Unit improvement exist. Specifically, Unit case files did
                   not consistently contain documentation of supervisory approval to open
                   and close cases or periodic supervisory reviews. In addition, the Unit did
                   not refer three sentenced individuals to OIG for program exclusion. The
                   Unit’s policies and procedures manual did not reflect the Unit’s periodic
                   case file review process. Finally, the Unit did not report adverse actions to
                   the NPDB. Other than the failures to report three providers to OIG for
                   program exclusion and to report adverse actions to the NPDB, we found
                   no evidence of noncompliance with applicable laws, regulations, or policy
                   transmittals.
                   We recommend that the Utah Unit:
                   Ensure that supervisory approval to open and close cases and
                   periodic supervisory reviews are documented in Unit case files
                   The Unit should ensure that supervisors are approving the opening and
                   closing of cases and consistently reviewing case files; approval to open
                   and close cases and periodic supervisory reviews should be documented in
                   the case files.
                   Ensure that letters referring providers for exclusion are
                   submitted to OIG within an appropriate timeframe
                   The Unit should ensure that letters referring individuals and entities for
                   exclusion are sent within 30 days of defendant sentencing, consistent with
                   2012 Performance Standard 8(f).
                   Revise its policies and procedures manual to reflect current
                   Unit operations
                   The Unit should revise its policies and procedures manual to include its
                   periodic case file review process.
                   Ensure that adverse actions are reported to the NPDB
                   The Unit should ensure that it reports all adverse actions, generated as a
                   result of investigations or prosecutions of healthcare providers, to the
                   NPDB, as specified in Federal regulations.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                    13
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the four report recommendations.
                   Regarding the first recommendation, the Unit reported that it has
                   instructed staff to include case-referral approval forms signed by Unit
                   management in the case files. The Unit also reported that it has instructed
                   supervisors to note periodic supervisory reviews in the Unit’s electronic
                   case-management system.
                   Regarding the second recommendation, the Unit explained that it did not
                   report the three cases to OIG for exclusion because it misunderstood
                   OIG’s exclusion policy. The Unit reported that it now understands this
                   policy and has since referred the three cases in question to OIG for
                   exclusion.
                   Regarding the third recommendation, the Unit agreed to update its policies
                   and procedures manual to reflect current Unit operations. The Unit
                   reported that it anticipates that the update will be completed by June 2014.
                   Regarding the fourth recommendation, the Unit reported that it is now
                   registered with the NPDB and will report all adverse actions as required.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                   14
                   APPENDIX A
                   Performance Standards for MFCUs (Units)39
                   1. 	A Unit will be in conformance with all applicable statutes,
                       regulations and policy transmittals. In meeting this standard, the
                       Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                        b.	 The Unit must be separate and distinct from the single State
                            Medicaid agency.
                        c.	 The Unit must have prosecutorial authority or an approved formal
                            procedure for referring cases to a prosecutor.
                        d.	 The Unit must submit annual reports, with appropriate 

                            certifications, on a timely basis.

                        e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit’s budget as approved by the Office of Inspector General
                           (OIG)?
                        b.	 Does the Unit employ the number of attorneys, auditors, and
                            investigators that were approved in the Unit’s budget?
                        c.	 Does the Unit employ a reasonable size of professional staff in
                            relation to the State’s total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations,
                       and maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance
                       indicators will be considered:


                   39
                     59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect
                   during most of our review period and precede the performance standards published in
                   June 2012.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                             15
                       a.	 Does the Unit have policy and procedure manuals?
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                   5. 	A Unit’s case mix, when possible, should cover all significant
                       provider types. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                    16
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                      a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard,
                       the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State’s statutes when necessary and appropriate
                           to do so?



Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                   17
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. 	A Unit should periodically review its memorandum of
                       understanding (MOU) with the single State Medicaid agency and
                       seek amendments, as necessary, to ensure it reflects current law
                       and practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                  18
                   APPENDIX B
                   Revised 2012 Performance Standards for MFCUs (Units)40
                   1. 	A Unit conforms with all applicable statutes, regulations, and
                       policy directives, including:
                          a.	 Section 1903(q) of the Social Security Act, containing the basic
                              requirements for operation of a MFCU;
                          b.	 Regulations for operation of a MFCU contained in 42 CFR 

                              part 1007; 

                          c.	 Grant administration requirements at 45 CFR part 92 and Federal
                              cost principles at 2 CFR part 225;
                          d.	 OIG policy transmittals as maintained on the OIG Web site; and
                          e.	 Terms and conditions of the notice of the grant award.
                   2. 	A Unit maintains reasonable staff levels and office locations in
                       relation to the State’s Medicaid program expenditures and in
                       accordance with staffing allocations approved in its budget.
                          a.	 The Unit employs the number of staff that is included in the Unit’s
                              budget estimate as approved by OIG.
                          b.	 The Unit employs a total number of professional staff that is
                              commensurate with the State’s total Medicaid program
                              expenditures and that enables the Unit to effectively investigate
                              and prosecute (or refer for prosecution) an appropriate volume of
                              case referrals and workload for both Medicaid fraud and patient
                              abuse and neglect.
                          c.	 The Unit employs an appropriate mix and number of attorneys,
                              auditors, investigators, and other professional staff that is both
                              commensurate with the State’s total Medicaid program
                              expenditures and that allows the Unit to effectively investigate and
                              prosecute (or refer for prosecution) an appropriate volume of case
                              referrals and workload for both Medicaid fraud and patient abuse
                              and neglect.
                          d.	 The Unit employs a number of support staff in relation to its
                              overall size that allows the Unit to operate effectively.
                          e.	 To the extent that a Unit maintains multiple office locations, such
                              locations are distributed throughout the State, and are adequately



                   40
                        77 Fed. Reg. 32645 (June 1, 2012).

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                      19
                            staffed, commensurate with the volume of case referrals and
                            workload for each location.
                   3. 	A Unit establishes written policies and procedures for its
                       operations and ensures that staff are familiar with, and adhere to,
                       policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                   4. 	A Unit takes steps to maintain an adequate volume and quality of
                       referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).



Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                  20
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,
                           consistent with patient confidentiality and consent. Pertinent
                           agencies vary by State but may include licensing and certification
                           agencies, the State Long Term Care Ombudsman, and adult
                           protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                   5. 	A Unit takes steps to maintain a continuous case flow and to
                       complete cases in an appropriate timeframe based on the
                       complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                   6. 	A Unit’s case mix, as practicable, covers all significant provider
                       types and includes a balance of fraud and, where appropriate,
                       patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                     21
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.
                   7. 	A Unit maintains case files in an effective manner and develops a
                       case management system that allows efficient access to case
                       information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                   22
                                      recoveries and the types of relief obtained through civil
                                      judgments or prefiling settlements.
                   8. 	A Unit cooperates with OIG and other Federal agencies in the
                       investigation and prosecution of Medicaid and other health care
                       fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                   9. 	A Unit makes statutory or programmatic recommendations, when
                       warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.


Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                      23
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies
                           responsible for Medicaid operations or funding. The Unit monitors
                           actions taken by the State legislature and the State Medicaid or
                           other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                   11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.

Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                  24
                   12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                     25
                   APPENDIX C
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Utah MFCU by Source, FYs 2010 Through 2012
                   Table C-1: Total MFCU Referrals of Fraud and Abuse and Annual Average

                                                                                                                          Annual
                    Case Type                             FY 2010          FY 2011       FY 2012     3-Year Total
                                                                                                                         Average*
                    Patient Abuse and Neglect                     41             28           13              82                27
                    Provider Fraud                                52             34           38             124                41
                     Total                                        93             62           51             206                69

                  Source: Unit response to OIG data request.
                  *Averages in this column are rounded.

                   Table C-2: MFCU Referrals, by Referral Source

                                                FY 2010                FY 2011               FY 2012
                                                     Abuse                   Abuse                  Abuse                 Percentage
                    Referral
                                        Fraud          and       Fraud         and       Fraud        and     Total            of All
                    Source
                                                    Neglect                 Neglect                Neglect                 Referrals*
                    Adult
                    Protective                  0         27           1         24          0           9          61         29.6%
                    Services
                    Other                   32             1        15               0       9           0          57         27.7%
                    State Medicaid
                                            10             6           6             4      12           4          42         20.4%
                    Agency
                    OIG                         1          0           2             0      13           0          16          7.8%
                    Licensing
                                                5          4           2             0       0           0          11          5.3%
                    Board
                    Providers                   3          1           4             0       0           0          8           3.9%
                    Law
                                                0          1           2             0       2           0          5           2.4%
                    Enforcement

                    MFCU Hotline                1         0            0             0       0           0          1           0.5%
                    Private
                                                0          0           1             0       0           0          1           0.5%
                    Citizens
                    Other State
                                                0         0            1             0       0           0          1           0.5%
                    Agencies

                    Ombudsman                   0         1            0             0       0           0           1          0.5%

                    Prosecutors                 0          0           0             0       1           0           1          0.5%
                    State Survey
                    and                         0          0           0             0       1           0           1          0.5%
                    Certification
                      Total                 52            41        34           28         38         13       206            100%
                      Annual
                                                          93                     62                     51
                      Total
                      Annual
                                                                                                        69
                      Average*
                  Source: Unit response to OIG data request. 

                  *This average is rounded. 





Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                                   26
                   APPENDIX D
                   Investigations Opened and Closed by the Utah MFCU, by
                   Provider Category and Case Type, FYs 2010 Through 2012



                   Table D-1: Total Annual Opened and Closed Investigations

                                                                                                                            Annual
                   Case Type                       FY 2010            FY 2011       FY 2012       3-Year Total
                                                                                                                           Average*
                   Opened                                   93             62            51               206                   69
                      Patient Abuse and
                                                            41             28            13                  82                 27
                      Neglect
                      Provider Fraud                        52             34            38               124                   41
                   Closed                                  105             33            80               218                   73
                      Patient Abuse and
                                                            66             25            26               117                   39
                      Neglect
                      Provider Fraud                        39              8            54               101                   34

                  Source: Unit response to OIG data request.
                  *Averages in this column are rounded.




                   Table D-2: Patient Abuse and Neglect Investigations


                    Provider Category                          FY 2010                    FY 2011                    FY 2012

                                                          Opened        Closed       Opened         Closed        Opened     Closed
                    Home Health Aides                             0             2             0          0             0          0

                    Nondirect Care                               0              1             0          0             1          0

                    Nurses/Doctor’s Assistants                    9         13                2          4             1          5

                    Nursing Facilities                           3              5             4          5             0          2
                    Other Long-Term Care
                                                                 1              1             2          1             0          2
                    Facilities
                    Other                                        28         44            20            15            11         17

                       Total                                     41         66            28            25            13         26

                   Source: Unit response to OIG data request.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                                     27
                   Table D-3: Provider Fraud Investigations

                    Provider Category                       FY 2010              FY 2011           FY 2012
                    Facilities                         Opened        Closed   Opened   Closed   Opened   Closed
                       Hospitals                                 0        0        0        0        1        0
                       Nursing Facilities                       1        0         0       1         0        1
                       Other Long-Term Care
                                                                 0        1        0        0        1        0
                       Facilities
                       Other Facilities                          3       2         5       0         1        2
                     Subtotal                               4             3        5        1        3        3
                    Practitioners                      Opened        Closed   Opened   Closed   Opened   Closed
                      Counselors/
                                                                 0        0        0        0        1        1
                      Psychologists
                       Dentists                                 0        1         0       0         1        3

                       Optometrists/Opticians                    0        0        0       0         2        1

                       Physicians                               4        0         2       2         2        4

                       Other Practitioners                       1        6        4       0         3        5
                     Subtotal                               5             7        6        2        9       14
                    Medical Support                    Opened        Closed   Opened   Closed   Opened   Closed
                      Durable Medical
                                                                 1        0        1       0         0        2
                      Equipment Suppliers
                      Home Health Care
                                                                 0       3         2       0         0        0
                      Agencies
                       Laboratories                              0       1         0       0         0        1
                       Nurses/Doctor’s
                                                                 2       1         0       1         3        2
                       Assistants
                       Pharmaceutical
                                                                31      15        14        1        6       18
                       Manufacturers
                       Pharmacies                                1        1        3       1         5        2
                       Radiologists                              0        0        0        0        0        1
                       Transportation Services                   0        0        0       0         1        0
                       Other Medical Support                     3        3        1        1        5        4
                     Subtotal                              38            24       21        4       20       30
                    Program Related                    Opened        Closed   Opened   Closed   Opened   Closed
                       Other Program Related                     5        5        2       1         6        7
                      Subtotal                                   5        5        2        1        6        7
                      Total                                     52       39       34       8        38       54

                   Source: Unit response to OIG data request.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                 28
                   APPENDIX E
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table E-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Because of these small sample sizes, we cannot reliably generalize
                   what we found in our sample review to each case type in the population,
                   and only our overall estimates project to the population of all case files.
                   We estimated the 4 population values for all 258 nonglobal case files from
                   the results of our review of the case files selected in our simple random
                   samples. Table E-2 includes the estimate descriptions, sample sizes, point
                   estimates, and 95-percent confidence intervals for these four estimates.

                   Table E-1: Population and Sample Size Counts for Case Types
                                                        Population Count               Sample Count*            Sample Count*
                    Case Type
                                                          and (%) n=258                 and (%) n=98             and (%) n=50

                    Closed                                       208 (81%)                    80 (82%)               42 (84%)

                    Open                                          50 (19%)                    18 (18%)                8 (16%)

                    Civil (Nonglobal)                              19 (7%)                       8 (8%)               5 (10%)

                    Criminal                                     239 (93%)                    90 (92%)               45 (90%)

                    Patient Abuse/Neglect                        142 (55%)                    47 (48%)               22 (44%)

                    Provider Fraud
                                                                 116 (45%)                    51 (52%)               28 (56%)
                    (Nonglobal)

                   Source: The Utah MFCU provided a list of all case files open during FYs 2010 through 2012.

                   *OIG generated this random sample.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                                               29
                   Table E-2: Confidence Intervals for Key Case File Review Data
                                                                            Point      95-Percent Confidence
                    Estimate Description           Sample Size
                                                                         Estimate                    Interval
                    Case Files With No
                    Documented Supervisory                    98               25.5%              18.6–33.3%
                    Approval for Opening
                    Case Files With No
                    Documented Supervisory                    80               12.5%               7.0–20.5%
                    Approval for Closing
                    Case Files With No
                    Documentation of at
                                                              98               33.7%              26.0–41.9%
                    Least One Supervisory
                    Review
                    Case Files With No
                    Documentation of
                                                              98               60.2%              51.6–68.2%
                    Periodic Supervisory
                    Review




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)                               30
                   APPENDIX F
                   Unit Comments




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)   31
Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)   32
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Matthew DeFraga served as the lead analyst for this study. Other Office
                   of Evaluation and Inspections staff from the San Francisco regional office
                   who provided support include Rosemary Rawlins. Central office staff
                   who provided support include Susan Burbach, Kevin Farber,
                   Christine Moritz, Andrew VanLandingham, and Sherri Weinstein. Office
                   of Investigations staff who provided support include Scott Frye.




Utah State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00490)               33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
